No.

IN THE SUPREME COURT OF THE UNITED STATES

BERNIER JACKSON,
Petitioner,

Vs

 

STATE OF FLORIDA,

Respondent.

On Petition for a Writ of Certiorari
to the Fifth District Court of Appeal
For the State of Florida

 

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

The Petitioner, Bernier Jackson, asks leave to file the enclosed Petition for
Writ of Certiorari without prepayment of costs and to proceed in forma pauperis in
accordance with Supreme Court Rule 39. Mr. Jackson has previously sought to
proceed in forma pauperis and been found indigent below under ยง 27.52, Fla. Stat.

WHEREFORE, Petitioner Bernier Jackson prays for leave to proceed in forma

pauperis.

 

Respectfully submitted,

yp
Dane K. Chase, Esquire
Florida Bar Number: 0076448

   

 
